                                              VETERANS’ EMPLOYMENT
                                              AND TRAINING SERVICE

Office of Inspector General—Office of Audit




                                              TEXAS WORKFORCE COMMISSION JOBS FOR
                                              VETERANS STATE GRANT




                                                               Date Issued: September 27, 2007
                                                               Report Number: 06-07-006-02-201
U.S. Department of Labor                          September 2007
Office of Inspector General
Office of Audit


BRIEFLY…                                          TEXAS WORKFORCE COMMISSION
                                                  JOBS FOR VETERANS STATE GRANT
Highlights of Report Number: 06-07-006-02-
201, to the Veterans’ Employment and Training     WHAT OIG FOUND
Service.

WHY READ THE REPORT                               The OIG found $17,905 in unsupported rent
                                                  allocation costs at the Central Texas Workforce
On April 1 2006, the Governor of Texas
                                                  Board (CTWB).
transferred responsibility for the Disabled
Veterans’ Outreach Program (DVOP) and the
                                                  We determined that TWC’s charging of PRHB
Local Veterans’ Employment Representatives
                                                  costs directly to the grant is allowable, based on
(LVER) program grant (Jobs for Veterans State
                                                  Office of Management and Budget Circular
Grant) from the Texas Workforce Commission
                                                  A-87 guidance.
(TWC) to the Texas Veterans’ Commission
(TVC).
                                                  We also concluded that TWC reported its
                                                  unliquidated obligations in accordance with
Prior to this transfer, the U.S. Department of
                                                  Standard Form 269 instructions.
Labor’s (DOL) Veterans’ Employment and
Training Service (VETS) had requested that
TWC complete an independent audit of the
grant in order to ensure a smooth transition to
                                                  WHAT OIG RECOMMENDED
TVC. In response, TWC provided the Single
Audit prepared by the Texas State Auditor’s       We recommended that the Assistant Secretary
Office – but it did not address VETS’ specific    for Veterans’ Employment and Training disallow
request.                                          and recover the $17,905 in unsupported rent
                                                  charges.
WHY OIG DID THE AUDIT
                                                  TWC and CTWB agreed to our findings and
VETS requested that the DOL Office of
                                                  recommendation and have initiated corrective
Inspector General (OIG) conduct an audit to
                                                  action.
address concerns it had regarding the grant,
primarily in the areas of expenses being
charged by the Local Workforce Boards, Post-
Retirement Health Benefit (PRHB) costs, and
reporting of unliquidated obligations.


READ THE FULL REPORT
To view the report, including the scope,
methodology, and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/200
7/06-07-006-02-201.pdf
                                                                                   TWC Jobs for Veterans State Grant




Table of Contents
                                                                                                                        PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5


FINDINGS AND RECOMMENDATIONS ....................................................................... 6


          Unsupported Rent Allocations Were Identified at One Local
          Workforce Board ................................................................................................ 6


          Post-Retirement Health Benefit Costs Charged Directly to the Grant Were
          Allowable............................................................................................................. 7


          TWC Reported Unliquidated Obligations Properly.......................................... 7


EXHIBITS........................................................................................................................ 9


          A. TWC JOBS FOR VETERANS STATE GRANT EXPENDITURES................ 11


          B. CENTRAL TEXAS WORKFORCE BOARD GENERAL ANALYSIS ........... 13
               •    CTWB Jobs for Veterans State Grant Expenditures
               •    CTWB Amounts and Percentages for the Twenty-Nine
                    Transactions Tested
               •    Schedule of Questioned Costs: CTWB Rent Allocation
                    Tansactions

APPENDICES ............................................................................................................... 15
          A. Background .................................................................................................. 17
          B. Objectives, Scope, Methodology, and Criteria .......................................... 19
          C. Acronyms and Abbreviations ..................................................................... 23
          D. Agency Response to Draft Report.............................................................. 25


U.S. Department of Labor—Office of Inspector General                                                                            1
Report Number: 06-07-006-02-201
                                                       TWC Jobs for Veterans State Grant




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                  2
Report Number: 06-07-006-02-201
                                                                  TWC Jobs for Veterans State Grant




Executive Summary
On April 1 2006, the Governor of Texas transferred responsibility for the Disabled
Veterans’ Outreach Program (DVOP) and the Local Veterans’ Employment
Representatives (LVER) program grant (Jobs for Veterans State Grant) from the Texas
Workforce Commission (TWC) to the Texas Veterans’ Commission (TVC). Prior to this
transfer, the U.S. Department of Labor’s (DOL) Veterans’ Employment and Training
Service (VETS) had requested that TWC complete an independent audit of the grant in
order to ensure a smooth transition to TVC. In response, TWC provided the Single
Audit prepared by the Texas State Auditor’s Office, which did not address VETS’
specific request.

VETS subsequently requested that the DOL Office of Inspector General (OIG) conduct
an audit to address concerns it had regarding the grant. We met with VETS National
and Regional Office staff to obtain a better understanding of their concerns. Based on
these discussions, we focused our work on the expenses being charged by the Local
Workforce Boards (Boards), Post-Retirement Health Benefit (PRHB) costs, and
reporting of unliquidated obligations. Using VETS’ input, we initially selected three
Boards for audit, but based on our initial results, performed work at only one Board (the
Central Texas Workforce Board, or CTWB), as well as at TWC.

Objectives

We conducted a performance audit to answer the following questions:

    1. Were unallowable and/or unsupported costs charged to TWC’s Jobs for Veterans
       State Grant?

    2. Were PRHB costs, charged directly to the grant, allowable?

    3. Did TWC report unliquidated obligations properly?

Results

At CTWB, we found $17,905 in unsupported rent allocation costs which we questioned1.
Because the majority of TWC’s expenditures related to salaries and fringe benefits—a
reasonable distribution for a staffing grant—and the exception we identified above was
relatively minor, we did not perform work at the two remaining Boards that were initially
selected. We determined that TWC’s charging of PRHB costs directly to the grant is
allowable, based on Office of Management and Budget (OMB) Circular A-87 (A-87)


1
 Rent-related expenses accounted for 85 percent of CTWB’s total grant expenditures for our period of
review (Exhibit B.)

U.S. Department of Labor—Office of Inspector General                                                   3
Report Number: 06-07-006-02-201
TWC Jobs for Veterans State Grant


guidance; and we concluded that TWC reported its unliquidated obligations in
accordance with Standard Form (SF) 269 (SF-269) instructions.

Auditee Response

TWC coordinated an informal written response with CTWB, which they subsequently
told us could be considered as official comments for purposes of finalizing the report.
They acknowledged there was a minor discrepancy in the allocation of rent charges,
and CTWB stated it has taken action to correct the allocation of rent and ensure
supporting documentation is maintained.

The response is attached to this report in its entirety as Appendix D.


OIG Conclusion

The report recommendations will be resolved through VETS’ formal audit resolution
process.


Recommendations

We recommend that the Assistant Secretary for Veterans’ Employment and Training
disallow and recover the $17,905 in unsupported rent charges.




4                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-07-006-02-201
DISCUSSION DRAFT
TWC Jobs for Veterans State Grant

U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report


Mr. Charles S. Ciccolella
Assistant Secretary for Veterans’
 Employment and Training Service
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

On April 1, 2006, the Governor of Texas transferred responsibility for the DVOP and
LVER program grants (Jobs for Veterans State Grants Program) from TWC to TVC.
Prior to this transfer, VETS had requested that TWC complete an independent audit of
the grant in order to ensure a smooth transition to TVC. In response, TWC provided the
Single Audit prepared by the Texas State Auditor’s Office, which did not address VETS’
specific request. VETS subsequently requested OIG to conduct an audit to address
concerns it had regarding the grant, primarily in the areas of expenses being charged by
the Boards, Post-Retirement Health Benefit (PRHB) costs, and reporting of unliquidated
obligations.

We conducted a performance audit to answer the following questions:

   1. Were unallowable and/or unsupported costs charged to TWC’s Jobs for Veterans
      State Grant?

   2. Were PRHB costs, charged directly to the grant, allowable?

   3. Did TWC report unliquidated obligations properly?

We conducted this audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Our audit objectives, scope, methodology, and
criteria are detailed in Appendix B.




U.S. Department of Labor—Office of Inspector General                                  5
Report Number: 06-07-006-02-201
TWC Jobs for Veterans State Grant


FINDINGS AND RECOMMENDATIONS

Objective 1 – Were unallowable and/or unsupported costs charged to TWC’s Jobs
for Veterans State Grant?

Unsupported Rent Allocations Were Identified at One Local Workforce Board.

At CTWB, we questioned $17,905 in unsupported rent allocation costs, which represents
three percent of CTWB’s total charges to the grant2. CTWB allocated rent to
programs/grants based on their respective percentage of total time charged. However,
CTWB did not maintain time records to fully support the sampled rent allocation
costs charged to the Jobs for Veterans State Grants Program.

The Jobs for Veterans grant, Section IX, states that cost principles in A-87 are
applicable. Specifically, Attachment A, section C (Basic Guidelines) in A-87 states that
factors affecting allowability of costs include that costs must be adequately documented.

In addition, Title 29, Code of Federal Regulations (29 CFR), part 97 subpart C, section
97.20 (Common Rule)-- prescribed by DOL for all grants with State and Local
governments--states that accounting records must be supported by such source
documentation as canceled checks, paid bills, payrolls, time and attendance records,
contracts and subgrant award documents, etc.

In an e-mail dated April 23, 2007, a CTWB official agreed to address the issue we
identified (Exhibit B) by maintaining the required supporting timesheet documentation at
the Board level.

Other Reviewed Costs Appeared Reasonable.

Our analysis of aggregate grant expenditures at TWC showed a low risk that further
review would identify significant questionable costs. A comparison of these expenditures
to the approved cost allocation plan did not identify any discrepancies. Further,
approximately 53 percent of total grant funding was used for DVOP/LVER salaries and
fringe benefits, which we determined to be a reasonable distribution of funding for a
staffing grant.

Our review of a statistical sample of transactions at CTWB, in the cost categories of
administrative allocation and travel, revealed no discrepancies




2
 Rent-related expenses accounted for 85 percent of CTWB’s total grant expenditures for our period of
review (Exhibit B.)

6                                             U.S. Department of Labor—Office of Inspector General
                                                                  Report Number: 06-07-006-02-201
                                                           TWC Jobs for Veterans State Grant




Objective 2 – Were PRHB costs, charged directly to the grant, allowable?

PRHB Costs Charged Directly to the Grant Were Allowable.

We concluded that TWC’s charging of PRHB costs directly to the grant were allowable.
These costs represented $1,408,751, or approximately 5 percent, of total grant funding
issued during our audit period (Exhibit A.)

TWC allocated PRHB costs to the appropriate programs based on the total direct
salaries of current TWC staff, which was in accordance with OMB A-87 guidance.
Further, PRHB costs were included in TWC’s cost allocation plan, which was approved
by the DOL’s Office of Cost Determination.

OMB Circular A-87, Attachment B, section f, states that:

       Post-retirement health benefits refers to costs of health insurance or
       health services not included in a pension plan covered by subsection e. for
       retirees and their spouses, dependents, and survivors. PRHB costs may
       be computed using a “pay-as-you-go method.” . . .

Objective 3 – Did TWC report unliquidated obligations properly?

TWC Reported Unliquidated Obligations Properly.

We concluded that TWC reported unliquidated obligations properly on SF-269, the
Financial Quarterly Report. TWC’s accounting procedures for reporting unliquidated
obligations on the SF-269 followed prescribed reporting requirements, and were as follows:

       •   TWC contracts with the Boards; this is shown as an obligation in TWC’s
           accounting system.
       •   The Boards report their actual expenses monthly through an on-line reporting
           system.
       •   TWC consolidates the Boards’ reported actual expenses with the state-level
           expenses to determine what funding has not been expended (unliquidated
           obligations).
       •   This amount is then shown as an unliquidated obligation on the SF-269.

SF-269 (Financial Quarterly Report) states that the unliquidated obligations line should
consist of the following:

       Enter the total amount of unliquidated obligations, including unliquidated
       obligations to sub-grantees (emphasis added) and contractors.
       Unliquidated obligations on a cash basis are obligations incurred, but not

U.S. Department of Labor—Office of Inspector General                                       7
Report Number: 06-07-006-02-201
TWC Jobs for Veterans State Grant


       yet paid. On an accrual basis, they are obligations incurred, but for which
       an outlay has not yet been recorded.


Agency Response

TWC coordinated an informal written response with CTWB, which they subsequently
told us could be considered as official comments for purposes of finalizing the report.
They acknowledged there was a minor discrepancy in the allocation of rent charges,
and CTWB stated it has taken action to correct the allocation of rent and ensure
supporting documentation is maintained.

The response is attached to this report in its entirety as Appendix D.


OIG Conclusion

The report recommendations will be resolved through VETS’ formal audit resolution
process.



Recommendations

We recommend that the Assistant Secretary for Veterans’ Employment and Training
disallow and recover the $17,905 in unsupported rent charges.




Elliot P. Lewis
July 30, 2007




8                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-07-006-02-201
                                                       TWC Jobs for Veterans State Grant




Exhibits




U.S. Department of Labor—Office of Inspector General                                  9
Report Number: 06-07-006-02-201
TWC Jobs for Veterans State Grant




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




10                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 06-07-006-02-201
                                                       TWC Jobs for Veterans State Grant


                                                                            EXHIBIT A

                  TWC Jobs for Veterans State Grant Expenditures
                        October 1, 2003 - March 31, 2006

                                                                        Percent of
                   Type of Expense                       Amount
                                                                       Total Funding
DVOP/LVER Salaries and Fringe Benefits                 $15,153,106                 53
Operating Grants                                         5,181,589                 18
State Direct Charges
  • Non DVOP/LVER Direct Salaries and Benefits           2,931,173                   10
  • PRHB                                                 1,408,751                    5
  • Other                                                1,493,063                    5
State Indirect Charges                                   2,463,649                    9
Total Charges                                          $28,631,332
Total Funding                                          $28,644,327                  100




U.S. Department of Labor—Office of Inspector General                                 11
Report Number: 06-07-006-02-201
TWC Jobs for Veterans State Grant




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 06-07-006-02-201
                                                          TWC Jobs for Veterans State Grant


                                                                               EXHIBIT B
                  Central Texas Workforce Board General Analysis


                CTWB Jobs for Veterans State Grant Expenditures
                          October 1, 2003 - March 31, 2006
                                                               Percent of
                Type of Expense                    Amount     CTWB Total
                                                                Funding
  Rent/Rent Related Allocation                      $499,101              85
  Administrative Allocation                            47,821              8
  Equipment                                            26,660              4
  DVOP/LVER Travel                                      9,249              2
  Miscellaneous                                         1,297              1
  Total Grant Expenditures                          $584,128
  Total Grant Funding                               $584,128            100




   CTWB Amounts and Percentages for the Twenty-Nine Transactions Tested
                           October 1, 2003 - March 31, 2006
        Type of Expense              Amounts Tested         Total  Percentage
  Rent/Rent Related Allocation                 $148,474 $499,101         29.75
  Administrative Allocation                        9,565    47,821          20
  DVOP/LVER Travel                                   453     9,249         4.9
  Equipment                                   Not Tested    26,660
  Miscellaneous                               Not Tested     1,297
  Total                                          158,492 $584,128        27.13




        Schedule of Questioned Costs: CTWB Rent Allocation Transactions

                           Transaction                          Unsupported Portion
     Posting                                      Original          of Expense
                              Date
     Number                                       Amount
     601                   04/28/2004                 $70,895                    $12,426
     338                   02/03/2006                  10,158                      2,095
     150                   09/01/2005                   8,128                        893
     180                   09/01/2005                   7,888                      2,491
     Total                                            $97,070                    $17,905


U.S. Department of Labor—Office of Inspector General                                    13
Report Number: 06-07-006-02-201
TWC Jobs for Veterans State Grant




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 06-07-006-02-201
                                                       TWC Jobs for Veterans State Grant




Appendices




U.S. Department of Labor—Office of Inspector General                                 15
Report Number: 06-07-006-02-201
TWC Jobs for Veterans State Grant




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 06-07-006-02-201
                                                                       DISCUSSION DRAFT
                                                                 TWC Jobs for Veterans State


                                                                             APPENDIX A
BACKGROUND


VETS offers employment and training services to eligible veterans through the Jobs for
Veterans State Grants. Under this non-competitive grant program, funds are generally
allocated to the designated administrative entity that operates the One-Stop
employment and workforce information service system within each state. The grant
supports two principal staff positions:

       •   Disabled Veterans’ Outreach Program Specialists
       •   Local Veterans’ Employment Representatives

Services are provided to maximize employment and training opportunities for veterans,
other eligible persons, transitioning service members, their spouses (through the
Transition Assistance Program Employment Workshops) and, indirectly, employers. The
grant allows states more flexibility to determine the most effective and efficient
distribution of staff resources based upon the distinct roles and responsibilities of the
DVOP and LVER positions.

The Jobs for Veterans State Grant requires that the State submit a plan that describes
the manner in which it will furnish employment, training, and placement services
required under Chapter 41 of Title 38, United States Code (U.S.C.). This plan should
include: DVOP/LVER duties and integration into the employment service delivery
system, how veterans’ priority is applied, Veterans’ performance goals and their
anticipated outcomes, and any additional information the VETS Assistant Secretary may
require. The State is given a set allocation from which to develop its plan. The
allocation goes to the State in one funding stream as a program grant and then is
divided at the State level through separate accounting programs.

TWC’s plan stated that funding would be allocated to 28 Boards, and identified these
allocations as resource agreements. Through these agreements, TWC allocated
approximately 18 percent of its total grant funding--$5.2 million of $28.6 million--to the
Boards for nonpersonnel costs of DVOP/LVER staff located in the Centers (Exhibit A.)

On April 1, 2006, the Governor of Texas transferred the responsibility of the Jobs for
Veterans State Grants from TWC to TVC. Prior to this transfer, VETS had requested
that TWC complete an independent audit of the grant in order to ensure a smooth
transition to TVC. In response, TWC provided the Single Audit prepared by the Texas
State Auditor’s Office, which did not address VETS’ specific request. VETS
subsequently requested that OIG conduct an audit to address concerns it had regarding
the grant.




U.S. Department of Labor—Office of Inspector General                                         17
Report Number: 06-07-006-02-201
TWC Jobs for Veterans State Grant




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 06-07-006-02-201
                                                                        TWC Jobs for Veterans State Grant


                                                                                              APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

The audit objectives were to answer the following questions:

    1. Were unallowable and/or unsupported costs charged to TWC’s Jobs for Veterans
       State Grant?

    2. Were PRHB costs, charged directly to the grant, allowable?

    3. Did TWC report unliquidated obligations properly?

Scope

The audit covered transactions charged to the Jobs for Veterans State Grant by TWC
between October 1, 2003, to March 31, 2006.3 The audit period was selected based
on input from VETS and the OIG National Office. Our on-site work was completed at
the TWC office in Austin, Texas, and the CTWB office in Belton, Texas. Analysis was
completed at our Dallas and Denver Offices. Our fieldwork was performed from
October 2006 through April 2007.

Based on discussions with VETS’ National Office staff and Dallas Regional staff, we
initially selected 3 Boards in which to conduct detailed transaction testing. However,
after completing fieldwork at the first Board, CTWB, and identifying only a single
discrepancy, we determined that additional fieldwork would not be performed.

Based on a review of TWC’s monitoring reports and cost allocation plan, KPMG's
internal control questionnaires (part of Single Audit) and results, and interviews with
TWC’s key accounting personnel, we determined that TWC had sufficient internal
controls in place as they related to our audit objectives. For this audit, OIG has relied
upon information gathered during these interviews, as well as KPMG’s audit work, to
help provide reasonable assurance that TWC’s internal controls were effectively
designed and functioning properly.

Internal control work conducted at CTWB consisted of reviewing TWC’s monitoring reports
and independent audit reports, and interviewing key CTWB accounting personnel. Further,
we analyzed a statistical sample of CTWB transactions to determine if they met OMB
Circular A-87’s definition for being allowable and supported.




3
 This covers the period of time during which VETS officials felt there were issues with TWC’s management of the
grant, with March 31, 2006 denoting the end of TWC’s management of the grant.
U.S. Department of Labor—Office of Inspector General                                                          19
Report Number: 06-07-006-02-201
TWC Jobs for Veterans State Grant


Methodology

To determine whether costs charged to TWC’s Jobs for Veterans State Grant were
allowable, we interviewed staff at TWC, TVC, and CTWB, and reviewed monitoring
reports, contracts, Federal and Agency laws, regulations, policies and procedures, and
the work of other auditors. We obtained the universe of 103,009 transactions associated
with the Jobs for Veterans State Grant for the period of October 1, 2003 through
March 31, 2006. These transactions were obtained from TWC’s accounting system and
provided in a data file. Since TWC did not have the Board-level transaction detail, we
obtained from CTWB a data file detailing the 285 transactions it completed for the same
period.

At TWC, we analyzed a judgmental sample of 6 transactions to determine if they were
allowable and supported. A judgmental selection was used based on discussions with
VETS officials, who emphasized that their concerns were with charges at the Board level.
This sample comprised $25,782 of the $28,644,327 in funding received by TWC. The
sample consisted of 2 transactions from each grant year (2004-2006) from the following
categories—DVOP/LVER salaries, direct charges, and indirect charges.

At CTWB, we analyzed a statistical sample of 29 transactions to determine if they were
allowable and supported. This sample comprised three cost categories—rent/rent-related
allocation, administrative allocation, and travel--and represented $158,492 of the $584,128
in total grant funding that CTWB received (Exhibit B.)

We determined data reliability by comparing total expenses charged to the grant to the
total grant amount at both the TWC and Board level.

In order to answer VETS’ questions regarding the allowability of PRHB costs, and to
determine if PRHB costs, charged directly to the grant, were allowable, we conducted
interviews with TWC finance personnel, reviewed TWC’s calculations for determining
PRHB allocations, and reviewed applicable federal guidelines in A-87.

To determine whether TWC reported unliquidated obligations properly, we conducted
interviews with TWC finance personnel and reviewed applicable regulations and
guidelines.

Our audit was conducted in accordance with Generally Accepted Government Auditing
Standards for performance audits.

Criteria
We used the following criteria to perform our audit:

Federal:
   •     OMB Circular A-87: Cost Principles for State, Local, and Indian Tribal
         Governments


20                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-07-006-02-201
                                                       TWC Jobs for Veterans State Grant


   •     OMB Circular A-102: Grants and Cooperative Agreements with State and Local
         Governments
   •     CFR, Title 29, Subpart C - Financial Administration
   •     Title 38, Chapter 41 USC: Job Counseling, Training, and Placement Service for
         Veterans
   •     Title 38, Chapter 42 USC.: Employment and Training of Veterans’
   •     Public Law 107-288: Jobs for Veterans Act

Program-Specific Policies, Regulations, or Directives:
   •   The Solicitation for Grant Applications: Jobs for Veterans State Grant
   •   Special Grant Provisions: October 1, 2001 through September 30, 2005 and
       October 1, 2004 through September 30, 2009

Veterans Program Letters:
   •   Number (No.) 01-04: Reporting Requirements for DVOP/LVER Grants for fiscal
       year (FY) 2004
   •   No. 07-04: Projecting Balance of FY 2004 Spending, Final DVOP/LVER Grant
       Modifications and Fifth Quarter Funding
   •   No. 02-05: FY 2004 Fifth and Final Quarter Reports and Annual Incentive
       Reporting Requirements
   •   No. 04-05: Jobs for Veterans Grant Yearly Modification Request for FY 2006
       Funding
   •   No. 05-05: Direct and Indirect Charges to the FY 2005-2009 Jobs for Veterans
       State Grants
   •   No. 07-05: Staffing, Reporting Requirements and Roles and Responsibilities of
       the DVOP and LVER under the Jobs for Veterans State Grant
   •   No. 02-06: Jobs for Veterans State Grant Reporting




U.S. Department of Labor—Office of Inspector General                                 21
Report Number: 06-07-006-02-201
TWC Jobs for Veterans State Grant




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 06-07-006-02-201
                                                       TWC Jobs for Veterans State Grant


                                                                         APPENDIX C
ACRONYMS AND ABBREVIATIONS


DOL           Department of Labor
CFR           Code of Federal Regulations
CTWB          Central Texas Workforce Board
DVOP          Disabled Veteran Outreach Program
FY            Fiscal Year
LVER          Local Veterans’ Employment Representative
No.           Number
OIG           Office of Inspector General
OMB           Office of Management and Budget
PRHB          Post Retirement Health Benefits
SF            Standard Form
TVC           Texas Veterans Commission
TWC           Texas Workforce Commission
USC           United States Code
VETS          Veterans’ Employment and Training Service




U.S. Department of Labor—Office of Inspector General                                 23
Report Number: 06-07-006-02-201
TWC Jobs for Veterans State Grant




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 06-07-006-02-201
                                                                                         DRAFT
                                                               TWC Jobs for Veterans State Grant

                                                                                  APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT

Executive Summary (Pages 3-4 of Discussion Draft)

Results:
At CTWB, we found $17,905 in unsupported rent allocation costs which we questioned1.
Because the majority of TWC’s expenditures related to salaries and fringe benefits – a
reasonable distribution of a staffing grant – and the exception we identified above was relatively
minor, we did not perform work at the two remaining Boards that were initially selected. We
determined that TWC’s charging of PRHB costs directly to the grant is allowable, based on
Office of Management and Budget (OMB) Circular A-87 (A-87) guidance; and we concluded
that TWC reported its unliquidated obligations in accordance with Standard Form (SF) 269 (SF-
269) instructions.

Auditee Response:

The Texas Workforce Commission (Commission) would like to thank the U.S. Department of
Labor’s Office of Inspector General’s audit team for their professionalism throughout the audit.
The Commission appreciates the confirmation that costs are being applied, allocated and
properly reported.

The Central Texas Local Workforce Development Board (LWDB) acknowledges there was a
minor discrepancy in the allocation of rent charges. Central Texas LWDB has taken appropriate
action to correct the allocation of rent, as well as ensuring supporting documentation is
maintained.


Results (Pages 6-8 of Discussion Draft)
Objective 1 – Were unallowable and/or unsupported costs charged to TWC’s Jobs for
Veterans State Grant?

At CTWB, we questioned $17,905 in unsupported rent allocation costs, which represents three
percent of CTWB‘s total charges to the grant2. CTWB allocated rent to program/grants based
on their respective percentage of total time charged. However, CTWB did not maintain time
records to fully support the sampled rent allocation costs charged to the Jobs for Veterans State
Grants Program.

Our review of a statistical sample of transactions at CTWB, in the cost categories of
administrative allocation and travel, revealed no discrepancies.

Objective 2 – Were PRHB costs, charged directly to the grant, allowable?

We concluded that TWC’s charging of PRHB costs directly to the grant were allowable.

U.S. Department of Labor—Office of Inspector General                                           25
Report Number: 06-07-006-02-201
TWC Jobs for Veterans State Grant




Objective 3 – Did TWC report unliquidated obligations properly?

We concluded that TWC reported unliquidated obligations properly on SF-269, the Financial
Quarterly Report.

Agency Response:

The Central Texas Local Workforce Development Board (LWDB) acknowledges there was a
minor discrepancy in the allocation of rent charges. As a result, the Central Texas LWDB has
corrected and is appropriately allocating rent, as well as maintaining the necessary supporting
documentation. Central Texas LWDB has determined that during that same time period there
were other allocable costs that were not charged to the Veterans’ Employment and Training
Service program due to lack of available funds under the grant. Central Texas LWDB welcomes
the opportunity to work with Veterans’ Employment and Training Service during the audit
resolution process to provide the supporting documentation in applying these other costs as
stand-in costs in place of the questioned costs.

The Texas Workforce Commission appreciates the confirmation that costs at the State level are
being applied, allocated and properly reported.




26                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-07-006-02-201
